                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 14-01291-241




    Combined Assessment Program 

            Review of the 

         Clement J. Zablocki 

         VA Medical Center 

       Milwaukee, Wisconsin 





August 12, 2014

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations
                    Telephone: 1-800-488-8244
                   E-Mail: vaoighotline@va.gov
         (Hotline Information: www.va.gov/oig/hotline)
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 EHR            electronic health record
                 EOC            environment of care
                 facility       Clement J. Zablocki VA Medical Center
                 FY             fiscal year
                 MEC            Medical Executive Committee
                 MH             mental health
                 MRI            magnetic resonance imaging
                 NA             not applicable
                 NM             not met
                 OIG            Office of Inspector General
                 PACU           post-anesthesia care unit
                 PRC            Peer Review Committee
                 QM             quality management
                 SDS            same day surgery
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                      CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                           Table of Contents 

                                                                                                                           Page 

Executive Summary ...................................................................................................            i


Objectives and Scope ................................................................................................            1

  Objectives ...............................................................................................................     1

  Scope......................................................................................................................    1


Reported Accomplishments......................................................................................                   2


Results and Recommendations ................................................................................ 3

  QM .......................................................................................................................... 3

  EOC ........................................................................................................................ 6

  Medication Management......................................................................................... 8

  Coordination of Care ............................................................................................... 9

  Acute Ischemic Stroke Care ................................................................................... 10

  CLC Resident Independence and Dignity ............................................................... 12

  MRI Safety .............................................................................................................. 14


Appendixes
  A. Facility Profile ....................................................................................................      16

  B. Strategic Analytics for Improvement and Learning ............................................                              17

  C. VISN Director Comments ..................................................................................                  20

  D. Facility Director Comments ...............................................................................                 21

  E. OIG Contact and Staff Acknowledgments .........................................................                            26

  F. Report Distribution .............................................................................................          27

  G. Endnotes ...........................................................................................................       28





VA OIG Office of Healthcare Inspections
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
May 12, 2014.

Review Results:          The review covered seven activities.                    We made no
recommendations in the following three activities:

 Environment of Care

 Medication Management

 Coordination of Care

The facility’s reported accomplishments were implementation of a standardized
medication reconciliation program and the facility’s Pathology and Laboratory Medicine
Service Product Line.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure the Surgical Work Group consistently meets monthly.
Require that the Blood Usage Review Committee member from Medicine Service
attends meetings.

Acute Ischemic Stroke Care: Complete and document National Institutes of Health
stroke scales for each stroke patient, and screen patients for difficulty swallowing prior
to oral intake. Ensure employees involved in assessing and treating stroke patients
receive the training required by the facility.

Community Living Center Resident Independence and Dignity:           Complete and
document restorative nursing services according to residents’ care plans. Modify
restorative nursing interventions as needed, and document the modifications. Ensure
hand-off communication occurs between Physical Medicine and Rehabilitation Service
and the community living center when residents are discharged from therapy. Require
that employees who perform restorative nursing services receive range of motion
training.

Magnetic Resonance Imaging Safety: Ensure that radiologists and/or Level 2 magnetic
resonance imaging personnel document resolution in patients’ electronic health records
of all identified magnetic resonance imaging contraindications prior to the scan.
Require that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training.




VA OIG Office of Healthcare Inspections                                                           i
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–25, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                          JOHN D. DAIGH, JR., M.D. 

                                                         Assistant Inspector General for 

                                                            Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Acute Ischemic Stroke Care

   	 CLC Resident Independence and Dignity

   	 MRI Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FYs 2011–2013 and FY 2014 through
May 14, 2014, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Clement J. Zablocki VA Medical Center, Milwaukee, Wisconsin,
Report No. 11-04567-179, May 21, 2012).

During this review, we presented crime awareness briefings for 95 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
1,111 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Pharmacist Admission Medication Reconciliation Program
In February 2014, the pharmacy implemented a standardized admission medication
reconciliation program.     During the first 6 weeks, pharmacists completed
333 interventions and made 902 recommendations to providers during patient
admissions. As a result of this new program, the number of medication discrepancies
detected by pharmacists during medication reconciliation at a patient’s discharge has
decreased significantly.

Pathology and Laboratory Medicine Service Product Line
The facility’s Pathology and Laboratory Medicine Service Product Line serves as 1 of
2 core laboratories for VISN 12, performing special chemistry and infectious disease
testing and microbiology and mycology testing for the Northern Tier. In addition, the
facility’s laboratory performs all of the mycobacteriology testing for VISN 12. In
August 2013, the product line achieved complete VISN standardization of critical
laboratory values.




VA OIG Office of Healthcare Inspections                                                          2
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.a

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                            Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated and completed, and results
       were reported to the MEC.
 NA    Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                       3
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


NM               Areas Reviewed (continued)                                      Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
 X     The surgical review process met selected               The Surgical Work Group only met twice over
       requirements:                                           the past 6 months.
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                       4
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


NM              Areas Reviewed (continued)                                       Findings
 X     The process to review blood/transfusions              Twelve months of Blood Usage Review
       usage met selected requirements:                      Committee meeting minutes reviewed:
        A committee with appropriate clinical                The clinical representative from Medicine
          membership met at least quarterly to review          Service did not attend the past four quarterly
          blood/transfusions usage.                            meetings.
        Additional data elements were routinely
          reviewed.
 NA    Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendations

1.    We recommended that the Surgical Work Group consistently meet monthly.

2. We recommended that processes be strengthened to ensure that the Blood Usage Review
Committee member from Medicine Service attends meetings.




VA OIG Office of Healthcare Inspections                                                                         5
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether the facility
met selected requirements in SDS, the PACU, and the eye clinic.b

We inspected the emergency department, the CLC, the intensive care unit, the inpatient MH
unit, the oncology unit, the surgical unit, SDS, the PACU, and the eye clinic. Additionally, we
reviewed relevant documents, conversed with key employees and managers, and reviewed
27 employee training records (12 SDS, 10 PACU, and 5 eye clinic). The table below shows the
areas reviewed for this topic. Any items that did not apply to this facility are marked NA. The
facility generally met requirements. We made no recommendations.

NM            Areas Reviewed for General EOC                                     Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                     
       Environmental safety requirements were met.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
          Areas Reviewed for SDS and the PACU
       Designated SDS and PACU employees                      
       received bloodborne pathogens training
       during the past 12 months.
       Designated SDS employees received medical              
       laser safety training with the frequency
       required by local policy.
       Fire safety requirements in SDS and on the             
       PACU were met.
       Environmental safety requirements in SDS               
       and on the PACU were met.




VA OIG Office of Healthcare Inspections                                                                       6
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


NM        Areas Reviewed for SDS and the PACU                                    Findings
                          (continued)
       SDS medical laser safety requirements were             
       met.
       Infection prevention requirements in SDS and
       on the PACU were met.
       Medication safety and security requirements            
       in SDS and on the PACU were met.
       Auditory privacy requirements in SDS and on            
       the PACU were met.
       The facility complied with any additional              
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Eye Clinic
       Designated eye clinic employees received               
       laser safety training with the frequency
       required by local policy.
       Environmental safety requirements in the eye           
       clinic were met.
       Infection prevention requirements in the eye           
       clinic were met.
       Medication safety and security requirements            
       in the eye clinic were met.
       Laser safety requirements in the eye clinic            
       were met.
       The facility complied with any additional              
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                       7
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.c

We reviewed relevant documents and conversed                       with key managers and employees.
Additionally, we reviewed the EHRs of 34 randomly                 selected inpatients discharged on 1 of
3 selected oral antibiotics. The table below shows the            areas reviewed for this topic. Any items
that did not apply to this facility are marked NA. The            facility generally met requirements. We
made no recommendations.

NM                      Areas Reviewed                                           Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                       8
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.d

We reviewed relevant documents, and we conversed with key employees. Additionally, we
reviewed the EHRs of 19 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                           Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                       9
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Acute Ischemic Stroke Care
The purpose of this review was to determine whether the facility complied with selected
requirements for the assessment and treatment of patients who had an acute ischemic stroke.e

We reviewed relevant documents, the EHRs of 36 randomly selected patients who experienced
stroke symptoms, and 15 employee training records (5 emergency department, 5 intensive care
unit, and 5 inpatient unit), and we conversed with key employees. We also conducted onsite
inspections of the emergency department, urgent care, one critical care unit, and four acute
inpatient units. The table below shows the areas reviewed for this topic. The areas marked as
NM did not meet applicable requirements and needed improvement. Any items that did not
apply to this facility are marked NA.

NM                      Areas Reviewed                                           Findings
       The facility’s stroke policy/plan/guideline
       addressed all required items.
 X     Clinicians completed the National Institutes of        Eight EHRs (22 percent) did not contain
       Health stroke scale for each patient within the         documented evidence of completed stroke
       expected timeframe.                                     scales.
       Clinicians provided medication (tissue
       plasminogen activator) timely to halt the
       stroke and included all required steps, and
       tissue plasminogen activator was in stock or
       available within 15 minutes.
       Stroke guidelines were posted in all areas
       where patients may present with stroke
       symptoms.
 X     Clinicians screened patients for difficulty            Nine EHRs (25 percent) did not contain
       swallowing prior to oral intake of food or              documentation that patients were screened
       medicine.                                               for difficulty swallowing prior to oral intake.
       Clinicians provided printed stroke education to
       patients upon discharge.
 X     The facility provided training to staff involved       Five employees had not completed the
       in assessing and treating stroke patients.              web-based training required by the facility.
       The facility collected and reported required
       data related to stroke care.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that processes be strengthened to ensure that clinicians complete and
document National Institutes of Health stroke scales for each stroke patient and that compliance
be monitored.

4. We recommended that processes be strengthened to ensure that clinicians screen patients
for difficulty swallowing prior to oral intake.




VA OIG Office of Healthcare Inspections                                                                          10
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


5. We recommended that processes be strengthened to ensure that employees who are
involved in assessing and treating stroke patients receive the training required by the facility and
that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      11
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


CLC Resident Independence and Dignity
The purpose of this review was to determine whether the facility provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.f

We reviewed 20 EHRs of residents (10 residents receiving restorative nursing services and
10 residents not receiving restorative nursing services but candidates for services). We also
observed 5 residents during 2 meal periods, reviewed 10 employee training/competency records
and other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The areas marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                           Findings
       The facility offered restorative nursing
       services.
 X     Facility staff completed and documented                None of the 10 applicable EHRs contained
       restorative nursing services, including active          documentation that facility staff completed
       and passive range of motion, bed mobility,              restorative nursing services according to
       transfer, and walking activities, according to          residents’ care plans.
       clinician orders and residents’ care plans.
 X     Resident progress towards restorative nursing          None of the three applicable EHRs contained
       goals was documented, and interventions                 evidence that facility staff documented that
       were modified as needed to promote the                  interventions were modified to promote the
       resident’s accomplishment of goals.                     residents’ accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
 X     If residents were discharged from physical             None of the three EHRs of residents who
       therapy, occupational therapy, or                       were discharged from one of the therapies
       kinesiotherapy, there was hand-off                      reflected hand-off communication.
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were                Four employee training records did not
       completed for staff who performed restorative           contain evidence of completed training for
       nursing services.                                       range of motion.
       The facility complied with any additional
       elements required by VHA or local policy.
            Areas Reviewed for Assistive Eating
                 Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                      12
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


NM        Areas Reviewed for Assistive Eating                                    Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that staff complete and
document restorative nursing services according to residents’ care plans and that compliance
be monitored.

7. We recommended that processes be strengthened to ensure that staff modify restorative
nursing interventions as needed and document the modifications and that compliance be
monitored.

8. We recommended that process be strengthened to ensure that hand-off communication
occurs between Physical Medicine and Rehabilitation Service and the community living center
when residents are discharged from therapy to ensure that restorative nursing services occur.

9. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training for range of motion.




VA OIG Office of Healthcare Inspections                                                                      13
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


MRI Safety
The purpose of this review was to determine whether the facility ensured safety in MRI in
accordance with VHA policy requirements related to: (1) staff safety training, (2) patient
screening, and (3) risk assessment of the MRI environment.g

We reviewed relevant documents and the training records of 46 employees (30 randomly
selected Level 1 ancillary staff and 16 designated Level 2 MRI personnel), and we conversed
with key managers and employees. We also reviewed the EHRs of 35 randomly selected
patients who had an MRI January 1–December 31, 2013. Additionally, we conducted physical
inspections of two MRI areas. The table below shows the areas reviewed for this topic. The
areas marked as NM did not meet applicable requirements and needed improvement. Any
items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                     Findings
       The facility completed an MRI risk
       assessment, there were documented
       procedures for handling emergencies in MRI,
       and emergency drills were conducted in the
       MRI area.
       Two patient safety screenings were conducted
       prior to MRI, and the secondary patient safety
       screening form was signed by the patient,
       family member, or caregiver and reviewed and
       signed by a Level 2 MRI personnel.
 X     Any MRI contraindications were noted on the     Twenty-eight of 29 applicable EHRs did not
       secondary patient safety screening form, and     contain documentation that all identified
       a Level 2 MRI personnel and/or radiologist       contraindications were addressed prior to
       addressed the contraindications and              MRI.
       documented resolution prior to MRI.
 X     Level 1 ancillary staff and Level 2 MRI         Six Level 1 ancillary staff (20 percent) did not
       personnel were designated and received           receive level-specific annual MRI safety
       level-specific annual MRI safety training.       training.
       Signage and barriers were in place to prevent
       unauthorized or accidental access to Zones III
       and IV.
       MRI technologists maintained visual contact
       with patients in the magnet room and two-way
       communication with patients inside the
       magnet, and the two-way communication
       device was regularly tested.
       Patients were offered MRI-safe hearing
       protection for use during the scan.
       The facility had only MRI-safe or compatible
       equipment in Zones III and IV, or the
       equipment was appropriately protected from
       the magnet.
       The facility complied with any additional
       elements required by VHA or local policy.



VA OIG Office of Healthcare Inspections                                                                      14
                                          CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Recommendations

10. We recommended that processes be strengthened to ensure that radiologists and/or
Level 2 magnetic resonance imaging personnel document resolution in patients’ electronic
health records of all identified magnetic resonance imaging contraindications prior to magnetic
resonance imaging and that compliance be monitored.

11. We recommended that processes be strengthened to ensure that all designated Level 1
ancillary staff receive annual level-specific magnetic resonance imaging safety training and that
compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      15
                                    CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                               Appendix A


     Facility Profile (Milwaukee/695) FY 2014 through May 20141
Type of Organization                                                                      Primary
Complexity Level                                                                          1a-High complexity
Affiliated/Non-Affiliated                                                                 Affiliated
Total Medical Care Budget in Millions                                                     $546.2
Number of:
    Unique Patients                                                                      55,263
    Outpatient Visits                                                                    491,306
    Unique Employees2                                                                    3,129
Type and Number of Operating Beds (as of April 2014):
    Hospital                                                                             196
    CLC                                                                                  113
    MH                                                                                   205
Average Daily Census:
    Hospital                                                                             130
    CLC                                                                                  83
    MH                                                                                   133
Number of Community Based Outpatient Clinics                                              4
Location(s)/Station Number(s)                                                             Appleton/695BY
                                                                                          Union Grove/695GA
                                                                                          Cleveland/695GC
                                                                                          Green Bay/695GD
VISN Number                                                                               12




1
    All data is for FY 2014 through May 2014 except where noted. 

2
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                    16
                                                              CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                                                         Appendix B

                                    Strategic Analytics for Improvement and Learning (SAIL)3




3
    Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                          17
                                                    CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                18
                                                                                              CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


                                                                         Metric Definitions
 Measure                       Definition                                                                           Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)    A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                              A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                           A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                 A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                          A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)       A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                        A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                    A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                               A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                 A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                       A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                 A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)    A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)             A higher value is better than a lower value
 PSI                           Patient safety indicator                                                             A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                     A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                       A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction              A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                 A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                                A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction            A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure               A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                              A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                  A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                       A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)           A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                           19
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 14, 2014

          From:        Director, VA Great Lakes Health Care System (10N12)

       Subject:        CAP Review of the Clement J. Zablocki VA Medical
                       Center, Milwaukee, WI

             To:       Director, Chicago Office of Healthcare Inspections (54CH)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Attached please find the CAP Review response to the draft report from
       the Clement J. Zablocki VA Medical Center, Milwaukee, Wl review.

       2. I have reviewed the completed response.

       3. I appreciate the Office of Inspector General's efforts to ensure high
       quality of care to veterans at the Milwaukee VAMC.




       Jeffrey A. Murawsky, MD, FACP




VA OIG Office of Healthcare Inspections                                                         20
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                        Appendix D
                            Facility Director Comments


               Department of
               Veterans Affairs                                   Memorandum


           Date:       July 11, 2014

           From:       Director, Clement J. Zablocki VA Medical Center (695/00)

       Subject:        CAP Review of the Clement J. Zablocki VA Medical
                       Center, Milwaukee, WI

             To:       Director, VA Great Lakes Health Care System (10N12)

       1. Enclosed are the responses to the recommendations in the draft Office
       of Inspector General’s report on the Milwaukee CAP Review.

       2. If you have any questions or wish to discuss this report, please contact
       me at (414) 384-2000, Extension 41025.




       Robert H. Beller, FACHE




VA OIG Office of Healthcare Inspections                                                         21
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that the Surgical Work Group consistently
meet monthly.

Concur

Target Date for Completion: July 31, 2014

Facility Response: The Surgical Work Group began monthly meetings in
February 2014. Meeting minutes will be monitored to ensure the Work Group meets
consistently.

Recommendation 2. We recommended that processes be strengthened to ensure that
the Blood Usage Review Committee member from Medicine Service attends meetings.

Concur

Target Date for Completion: July 31, 2014

Facility Response: Medicine has been represented at the Blood Utilization Council since
the First Quarter, FY14 meeting on March 3, 2014. Meeting minutes will be monitored
to ensure attendance from Medicine Service.

Recommendation 3. We recommended that processes be strengthened to ensure that
clinicians complete and document National Institutes of Health stroke scales for each
stroke patient and that compliance be monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: Requirements for completion and documentation of the National
Institutes of Health (NIH) Stroke Scale were reiterated at the Stroke Work Group
meeting in May 2014 to the representatives of the Emergency Department Nurses and
Physicians, Intensive Care Unit Nursing Staff and the Hospitalists. Audit processes
were modified and initiated in June 2014 to include monthly medical record monitoring
of NIH Stroke Scale documentation. Compliance will be considered satisfactory if the
compliance rate is 90 percent or greater, however, the cohort of applicable patients
exhibiting stroke symptoms is small.




VA OIG Office of Healthcare Inspections                                                         22
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Recommendation 4. We recommended that processes be strengthened to ensure that
clinicians screen patients for difficulty swallowing prior to oral intake.

Concur

Date for Completion: October 31, 2014

Facility Response: Requirements for completion and documentation of screening for
swallowing difficulty prior to oral intake were reiterated at the Stroke Work Group
meeting in May 2014 to the representatives of the Emergency Department Nurses and
Physicians, Intensive Care Unit Nursing Staff and the Hospitalists. Audit processes
were modified and initiated in June 2014 to include monthly medical record monitoring
of documentation for difficulty swallowing prior to oral intake. Compliance will be
considered satisfactory if the compliance rate is 90 percent or greater, however, the
cohort of applicable patients exhibiting stroke symptoms is small.

Recommendation 5. We recommended that processes be strengthened to ensure that
employees who are involved in assessing and treating stroke patients receive the
training required by the facility and that compliance be monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: Web-based training for Emergency Department Registered Nurses
and Providers, Intensive Care Unit Registered Nurses, Hospitalists, Medical Intensive
Care Unit Attending Physicians and Acute Care Registered Nurses will be required
every two (2) years. The required training requirements are assigned in the Talent
Management System (TMS). TMS reports will be generated and shared with Program
Managers on a monthly basis to track and ensure training completion for required staff.
Compliance will be considered satisfactory if the compliance rate is 90 percent or
greater.

Recommendation 6. We recommended that processes be strengthened to ensure that
staff complete and document restorative nursing services according to residents’ care
plans and that compliance be monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: Education for direct care nursing staff was developed by the Nurse
Educator, Program Managers, and Clinical Nurse Specialists and completed
March 19, 2014. The education occurred via staff meetings, email communications and
enduring materials which focused on following the established plan of care and
documenting the restorative nursing care delivered. Staff education of CLC direct care
nursing staff was recorded in the Talent Management System and greater than
90 percent compliance was achieved on July 2, 2014. Community Living Center staff


VA OIG Office of Healthcare Inspections                                                         23
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


will develop an audit tool in July 2014 to monitor documentation for all residents
receiving restorative care services in accordance with care plans. Compliance will be
considered satisfactory if 90 percent or greater of restorative care services are
completed and documented.

Recommendation 7. We recommended that processes be strengthened to ensure that
staff modify restorative nursing interventions as needed and document the modifications
and that compliance be monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: The Restorative Coordination Committee met to develop a
systematic approach for modification, documentation, and monitoring of restorative
care interventions. Community Living Center Registered Nurses will be educated on
the process to modify and document restorative care interventions by July 31, 2014.
Community Living Center neighborhood staff will develop an audit tool in July 2014 to
monitor documentation of modification of residents’ restorative care services.
Compliance will be considered satisfactory if 90 percent or greater of modified
restorative care services are completed and documented.

Recommendation 8. We recommended that process be strengthened to ensure that
hand-off communication occurs between Physical Medicine and Rehabilitation Service
and the community living center when residents are discharged from therapy to ensure
that restorative nursing services occur.

Concur

Target Date for Completion: October 31, 2014

Facility Response: A process for hand-off communication and staff education for
PM&R and direct care nursing staff was completed on April 10, 2014. Community
Living Center neighborhood staff will develop an audit tool in July 2014 to document
that handoff communication between Physical Medicine and Rehabilitation and
Nursing Services is consistently completed when residents are discharged from
rehabilitation services and begin restorative nursing services. Monthly auditing will
being in July 2014 on all residents discharged from therapy. Compliance will be
considered satisfactory if 90 percent or greater of hand off communications are
completed and documented and restorative nursing services are initiated.

Recommendation 9. We recommended that processes be strengthened to ensure that
employees who perform restorative nursing services receive training for range of
motion.

Concur

Target Date for Completion: July 31, 2014


VA OIG Office of Healthcare Inspections                                                         24
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI


Facility Response: Range Of Motion education was developed by the Nurse Educator
on March 19, 2014. Education and return demonstration assessment was completed
and recorded in the Talent Management System. As of July 2, 2014, 87 percent of
applicable employees have been trained and demonstrated competence. All staff that
perform restorative nursing services will complete ROM education by July 31, 2014.
Compliance will be considered satisfactory if 90 percent of staff have been trained and
demonstrate compliance.

Recommendation 10. We recommended that processes be strengthened to ensure
that radiologists and/or Level 2 magnetic resonance imaging personnel document
resolution in patients’ electronic health records of all identified magnetic resonance
imaging contraindications prior to magnetic resonance imaging and that compliance be
monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: Contraindications will be recorded in the electronic health record via
VISTA Imaging Capture/Display and a determination of risk will be noted. Beginning
in July 2014, monthly audits will be conducted to review compliance with
documentation to determine a compliance rate. Results will be reported to the MRI
Safety Committee. Compliance will be considered satisfactory if the compliance
rate is 90 percent or greater.

Recommendation 11. We recommended that processes be strengthened to ensure
that all designated Level 1 ancillary staff receive annual level-specific magnetic
resonance imaging safety training and that compliance be monitored.

Concur

Target Date for Completion: October 31, 2014

Facility Response: Appropriate personnel will be assigned to TMS Magnetic
Resonance Imaging Safety Training 9696 or other appropriate site-specific training by
July 31, 2014. Personnel will be assigned Level-specific training based on the
recommendations in the American College of Radiology Guidelines. A review of the
personnel assigned will be audited for accuracy by August 15, 2014. Monthly TMS
reports will be generated for Program Managers to track education compliance.
Training results will be reported to the MRI Safety Committee. Compliance will be
considered satisfactory if the compliance rate is 90 percent or greater.




VA OIG Office of Healthcare Inspections                                                         25
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Laura Spottiswood, RN, MPH, Team Leader
Contributors            Debra Boyd-Seale, RN, PhD
                        Sheila Cooley, GNP, MSN
                        Wachita, Haywood, RN
                        Judy Montano, MS
                        Gregg Hirstein, BS, Special Agent in Charge, Office of
                           Investigations
Other                   Judy Brown
Contributors            Elizabeth Bullock
                        Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Nathan McClafferty, MS
                        Patrick Smith, M. Stat
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         26
                             CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Great Lakes Health Care System (10N12)
Director, Clement J. Zablocki VA Medical Center (695/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Tammy Baldwin, Ron Johnson
U.S. House of Representatives: Sean P. Duffy, Ron Kind, Gwen Moore, Thomas Petri,
 Reid Ribble, Paul Ryan, F. James Sensenbrenner


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         27
                                 CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI
                                                                                           Appendix G

                                                Endnotes

a
  References used for this topic included:

  VHA Directive 2009-043, Quality Management System, September 11, 2009. 

  VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011. 

  VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010. 

  VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010. 

  VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation 

   Beds, March 4, 2010.
 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
   Cardiopulmonary Resuscitation Committees, October 17, 2008.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 VHA Directive 6300, Records Management, July 10, 2012.
 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
b
  References used for this topic included:
 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
 VHA Handbook 1121.01, VHA Eye Care, March 10, 2011.
 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
 “Adenovirus-Associated Epidemic Keratoconjunctivitis Outbreaks –Four States, 2008–2010,” Centers for Disease
   Control and Prevention Morbidity and Mortality Weekly Report, August 16, 2013.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the
   American National Standards Institute/Advancing Safety in Medical Technology, the Centers for Disease Control
   and Prevention, the International Association of Healthcare Central Service Materiel Management ,the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, Underwriters Laboratories.
c
  References used for this topic included:

 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.

 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006. 

 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.

 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012. 

 Manufacturer’s instructions for Cipro® and Levaquin®.

 Various requirements of The Joint Commission.

d
  References used for this topic included:

 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements, 

   July 29, 2009.
 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
e
  The references used for this topic were:
 VHA Directive 2011-038, Treatment of Acute Ischemic Stroke, November 2, 2011.
 Guidelines for the Early Management of Patients with Acute Ischemic Stroke (AHA/ASA Guidelines),
   January 31, 2013.
f
  References used for this topic included:
 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                        28
                                     CAP Review of the Clement J. Zablocki VA Medical Center, Milwaukee, WI



g
    References used for this topic included:
	 VHA Handbook 1105.05, Magnetic Resonance Imaging Safety, July 19, 2012.
	 Emanuel Kanal, MD, et al., “ACR Guidance Document on MR Safe Practices: 2013,” Journal of Magnetic
    Resonance Imaging, Vol. 37, No. 3, January 23, 2013, pp. 501–530.
	 The Joint Commission, “Preventing accidents and injuries in the MRI suite,” Sentinel Event Alert, Issue 38,
    February 14, 2008.
	 VA National Center for Patient Safety, “MR Hazard Summary,”
    http://www.patientsafety.va.gov/professionals/hazards/mr.asp.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.




VA OIG Office of Healthcare Inspections                                                                          29
